(1 of 6)

{DDJNOJ-RUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10462
Non-Argument Calendar
D.C. Docket No. 0:18-cv-62488-RAR

MARGUERITE T. MARTIN,
Plaintiff-Appellant,
versus

A* '•

TELEPERFORMANCE INC.,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Florida
(February 23, 2021)
Before JORDAN, GRANT, and LUCK, Circuit Judges.
PER CURIAM:

(2 of 6)

------- TPUS'AfiiredMarguerite-Martin-towork inits call center as a customer
service representative. But just four months later, it fired her. Martin sued,
claiming that the company unlawfully discriminated against her because of a
disability—anemia. The district court disagreed, and granted summary judgment
infavorofTPUSA. We affirm.
I.

We review de novo a district court’s grant of summary judgment, “viewing
the evidence in the light most favorable to the non-moving party and drawing all
reasonable inferences in their favor.” Crane v. Lifemark Hosps., Inc., 898 F.3d
1130, 1133-34 (11th Cir. 2018). Summary judgment is appropriate if “the movant
shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Id. at 1134 (quoting Fed. R. Civ. P.
56(a)).
II.
To make a prima facie showing of disability discrimination, a plaintiff must
establish “that, at the time of the adverse employment action, she had a disability,
she was a qualified individual, and she was subjected to unlawful discrimination
because of her disability.” U.S. Equal Emp. Opportunity Comm ’n v. St. Joseph’s
Hosp., Inc., 842 F.3d 1333,1343 (11th Cir. 2016). The Americans with
Disabilities Act defines “disability” in three ways. An individual is disabled if she
2

(3 of 6)

CD has a physical or mental impairment that substantially limits one or more of
her major life activities; (2) has a record of such an impairment; or (3) is regarded
as having such an impairment. 42 U.S.C. § 12102(1).
Martin has not shown that she qualifies as disabled within the meaning of
the Act. First, she has not established that her impairment—anemia—
substantially limits any major life activity. Id. § 12102(1)(A).1 Although this is
not a “demanding standard,” 29 C.F.R. § 1630.2(j)(l)(i), Martin has “failed to
argue or present evidence” that her anemia “substantially limited” any major life
activities, Standard v. A.B.E.L. Servs., Inc., 161 F.3d 1318,1327 (11th Cir. 1998).
She simply points to 2017 Woodwork indicating that she has anemia, and asserts
that,.she could “become impaired when the weather gets a little too cold” and
“anything can happen.” But she never points to any major life activity that is
impaired by her anemia. In fact, her own testimony confirms that her impairment
did not impact her work “in any way.” So Martin has not produced “evidence
sufficient to raise a genuine issue of fact that she is actually disabled.” •Lewis v.
City of Union City, 934 F.3d 1169, 1181 (11th Cir. 2019). And because Martin
has not established that her impairment substantially limits a major life activity,

1 Those activities include “caring for oneself, performing manual tasks, seeing, hearing, eating,
sleeping, walking, standing, lifting, bending, speaking, breathing, learning, reading,
concentrating, thinking, communicating, and working,” as well as “the operation of a major
bodily function.” 42 U.S.C. § 12102(2).
3

(4 of 6)

she necessarity-has-not-shown-a-Fecord-of-suchan-impairment. _ SeeJdilburn v.
Murata Electronics N. Am., Inc., 181 F.3d 1220, 1229 (11th Cir. 1999).
Nor has Martin established that she was regarded as disabled. Under the
Act, a person is “regarded as” disabled if she establishes that she was subjected to
a prohibited act because of an “actual or perceived physical or mental impairment
whether or not the impairment limits or is perceived to limit a major life activity.”
42 U.S.C. § 12102(3)(A). But nothing in the record indicates that TPUSA
regarded Martin as disabled. During Martin’s onboarding process, for example,
she stated that she did not have a mental or physical disability. She also stated
that she never provided TPUSA with any documents indicating that she was
anemic, and that she never told any of her managers that she was anemic. Nor did
she ever request a disability accommodation from TPUSA’s human resources
department. And finally, Martin confirmed that she did not inform her supervisor
of her anemia until after he told her that she was being fired. Martin has therefore
failed to establish a “disability” within the meaning of the Act.
Finally, Martin fleetingly asks that we consider a separate privacy claim.
We will not. Her amended complaint consists of a one-count discriminatory
termination claim under the Act. Martin did not “clearly present” her privacy
issue to the district court in a way that afforded it “an opportunity to recognize
and rule on it.” Ruckh v. Salus Rehab., LLC, 963 F.3d 1089,1111 (11 th Cir.
4

*v

(5 of 6)

*

-2020)-(quotatron-omitted)^A:nd-in-any-event,-a-passing-reference-to-an-issue-m-abrief is not enough, and the failure to make arguments and cite authorities in
support of an issue waives it.” Hamilton v. Southland Christian Sch., Inc., 680
F.3d 1316,1319 (11th Cir. 2012).
AFFIRMED.

■K-

»

’J

5

(6 of 6)

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
HUBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta. Georgia 30303
For rules and forms visit

David J. Smith
Clerk of Court

February 23, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-10462-GG
Case Style: Marguerite Martin v. Teleperformance Inc.
District Court Docket No: 0:18-CV-62488-RAR
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
V-

Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@cal 1.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Joseph Caruso. GG at (4041 335-6177.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone#: 404-335-6151
OP1N-1 Ntc of Issuance of Opinion

USCA11 Case: 20-10462

Date Filed: 04/20/2021

Page: 1 of 1

bNITEDS1-A-1-ESC0URTOFAPPI<;AI,S
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Cleric of Court

April 20, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-10462-GG
Case Style: Marguerite Martin v. Teleperformance Inc.
District Court Docket No: 0:18-CV-62488-RAR
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG/lt
Phone#: (404) 335-6177
REHG-1 Ltr Order Petition Rehearing

USCA11 Case: 20-10462

Date Filed: 04/20/2021

Page: 1 of 1

IN THF,-UNITED-STATES .COURT. OF. APPEALS.
FOR THE ELEVENTH CIRCUIT
No. 20-10462-GG
MARGUERITE T. MARTIN,
Plaintiff - Appellant,
versus
TELEPERFORMANCE INC.,
Defendant - Appellee.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITIONS FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: JORDAN, GRANT, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

Case 0:18-cv-62488-RAR Document 87 Entered on FLSD Docket 01/28/2020 Page 1 of 1

JJNIXED-STAXESJD1S TRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-CIV-62488-RAR
MARGUERITE T. MARTIN,
Plaintiff,
v.

TELEPERFORMANCE, INC.,
Defendant.
FINAL JUDGMENT
Pursuant to Federal Rule of Civil Procedure 58 and in accordance with the Court’s Order
Granting Defendant’s Motion for Summary Judgment [ECF No. 86], it is hereby
ORDERED AND ADJUDGED that Final Judgment is entered in favor of Defendant
TPUSA, Inc.1 Plaintiff shall take nothing from this action and Defendant shall go hence without
day.
DONE AND ORDERED in Fort Lauderdale, Florida, this 28th day of January, 2020.

RODOLFO RUIZ
UNITED STATES DISTRICT JUDGE

1 Although Plaintiffs Amended Complaint [ECF No. 9] brings a cause of action against Teleperformance,
Inc., Plaintiffs former employer, and the legal entity at issue, is TPUSA, Inc. See Certificate of Interested
Parties [ECF No. 42], Accordingly, all references to Defendant in this case are to TPUSA, Inc.

. I

U.S. Equal Employment Opportunity Commission
Miami District Office
Miami Tower, 100 S E 2nd Street
Suite 1500
Miami, FL 33131

NOTICE OF CHARGE OF DISCRIMINATION
(This Notice replaces EEOC FORM 13l)
DIGITAL CHARGE SYSTEM
September 27,2018
To: Ms. HR
Director
TELEPERFORMANCE
1991S 4650 W
Salt Lake City, UT 84104

This is notice that a charge of employment discrimination has been filed with the EEQc ag ai ist
your organization by Marguerite T. Martin, under: The Americans with Disabilities Act (ADA).
The circumstances of the alleged discrimination are based on Disability, and involve ssu es of
Discharge that are alleged to have occurred on or about Jan 18,2018.
The Digital Charge System makes investigations and communications with charging parties
and respondents more efficient by digitizing charge documents. The charge is availably fo •> ou
to download from the EEOC Respondent Portal, EEOC’s secure online system.
Please follow these instructions to view the charge within ten (10) days of receiving this
Notice:
1. Access EEOC’s secure online system: https://nxg.eeoc.gov/rsp/logm.jsf
2. Enter this EEOC Charge No.: 510-2018-04852
3. Enter this temporary password; dj3938tp
Once you log into the system, you can view and download the charge, and electron c< lly
submit documents to EEOC. Hie system will also advise you of possible actions or responses,
and identify your EEOC point of contact for this charge.
If you are unable to log into the EEOC Respondent Portal or have any questions regardin 5 :he
Digital Charge System, you can send an email to MiamiDigital@eeoc.gov.

Case 0:18-cv-62488-RAR Document 30-1 Entered on FLSD Docket 04/22/201§ Page 2 of 102
EEOC Form 1ST (11/18)

U.S. Equal Employment Opportunity Commission

----- Dismissal and Notice of Rights
T°:

Marguerite T. Martin
10530 SW 203rd terrace
Cutler, FL 33189

n
EEOC Charge No.

From:

Miami District Office
Miami Tower, 100 S E 2nd Street
Suite 1500
Miami, FL 33131

On behalf of personfs) aggrieved whoso Identity is
CONFIDENTIAL (29 CFRS1601.7/al)
EEOC Representative

Telephone No.

Mercedes Ricardo,
Supervisory investigator

510-201004852

(305) 808-1747
EE|°C ^ CLOS,NG 1X8 F,LE 0N TH,S CHARGE FOR THE FOLLOWING REASON:
j_J The facts alleged in the charge fail to state a claim under any of the statutes enforced by the EEOC.

1-----1

Your a,,e8ations did not involve a disability as defined by the Americans With Disabilities Act.

□

The Respondent employs less than the required number of employees or is not otherwise covered by the statutes.

1=1

EE00: ln

^

L_J
1

I

you

100 lon9 *«" *»

<* »•

det1enmination: 8886(1 uf>on As investigation, the EEOC is unable to conclude that the

The EEOC has adopted the findings of the state or local fair employment practices agency that investigated this charge.
1 Other (briefly state)

- NOTICE OF SUIT RIGHTS (See the additional information attached to this form.)

S^Su^t be StS?iw on n*S^ndfnt(S) unde,r federal law ^ed on this charge in federal or state court. Your
■t
Kale's;
SfET10 SUe
00 "”S ^ will be
mUSt

!ldera! ** f*318 court within 2 7ears (3 years for willful violations) of the

On behalf of the Commission
Endosuresfs)
cc:

Stephen Butauski, Human Ri
TELEPERFORMANCE
7562 Southgate Boulevard
North Lauderdale, FL 33068

SEP |8 7018
MICHAEL J. FARRELL,
District Director
trees Director

(Date Mailed)

Cazcau ct al v. TPUSA, Inc.
P.O. Box 26170, Santa Ana, CA 92799

PRESORTED
HIRST-CLASS MAIL
US POSTAGE
PAID
SIMPLUR1S INC

TSL£?ERFCR:.IAK€2 CALL CSMTS.X WCkKELS SETTLEMENT
-----VnuAreEntitled-ToReceive Money From A Proposed Settlement In A Lawsuit
By Employees Against Teleperformance. To Learn More and Get'Yoiir Share Of
The Settlement Money, Visit www.tpusasettlement.com and Return The Online
Opt In Form By July 19,2021.

siMinit?**

lS£

m

2

MARGUERITE MARTIN
10360 SW 186TH ST UNIT 971234
MIAMI. FL 33197-5163

You have received this Notice because the records of TPUSA, Inc. dba
Teleperformance USA ("Teleperformance") indicate that you were hired to work for
Teleperformance as a non-exempt customer service agent between April 17, 2016 and
April 29, 2021, and you may have received a notice instructing you to arrive 15 minutes
early to new hire training. There is a class action pending against Teleperformance, which
was filed on behalf of employees against Teleperformance. relating to the notice you may
have received.
As a potential class member, you are eligible to receive your share of the settlement
money. Participation is voluntary and requires action on your part. To receive your
portion of the Settlement, you must opt in by July 19, 2021. If you wish to object to
the Settlement, you must object by July 26. 2021.
For more information and to opf in or object, visit wAvw.tpusasettlement.com. To
access the website, type in your SIMID 11799 and Unique ID 9749AD. If you have any
questions regarding the Settlement, need assistance submitting the opt-in form, or would
like to request printed opt-in form, contact Simpluris at 833-200-8584.
If you are still employed by Teleperformance, your decision about whether to
State law and
participate in the settlement will not affect your employment.
Teleperformance company policy strictly prohibit unlawful retaliation

case U:iB-CV-0i£^OO-r\/-Ars.

UU^UMICIU

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. ia-CIV-62488-RAR
MARGUERITE T. MARTIN,
Plaintiff,
v.

TELEPERFORMANCE, INC.,
Defendant.
ORDER PROVIDING INSTRUCTIONS TO PRO SE LITIGANT
THIS MATTER is before the Court upon a sua sponte review of the record. Pro se
litigants, like all litigants, must comply with the Federal Rules of Civil Procedure and the Court’s
orders. It is therefore
ORDERED that Plaintiff, Marguerite T. Martin, a pro se litigant, shall comply with all
Federal Rules of Civil Procedure and Local Rules for the Southern District of Florida. The Local
Rules may be obtained from the Clerk of the Court. Failure to comply with the federal and local
rules may result in sanctions being imposed against pro se litigants. Some of the requirements of
these rules are as follows:
1. Every pleading, motion, memorandum or other paper required and/or permitted to be
filed with the Court must be filed directly with the Clerk of the Court. No letters, pleadings,
motions or other documents may be sent directly to the District Judge or Magistrate Judge’s
chambers. Any papers improperly delivered directly to chambers will be returned and disregarded
by the Court.
2. All papers filed must include the case style, case number, and appropriate title in the
Page 1 of2

5

Case 0:18-cv-62488-RAR Document 51 Entered on FLSD Docket 05/22/2019 v-Page 2 of 2

format required by the Local Rules. See Sample Form Following Local Rule 5.1. The signature
block of each pleading must also contain the pro se litigant’s name, address and telephone number. ~
3. All papers filed with the Cleric of Court must also be served on die opposing counsel,
or the opposing side if die opposing side is not represented by counsel. Each filing must include
a certificate of service indicating die name and address of die attorney served.
4. Litigants must promptly notify die Court of any change in address by filing a “Notice
of Change of Address,” which also must be served on opposing counsel.
5. A pro se litigant who wishes to oppose a motion must respond in writing within the time
periods provided by die rules of procedure.
6. Any litigant and his or her family, friends, or acquaintances may not call the Judge’s
chambers for legal advice about the case. Brief case status information contained on the docket
sheet may be available from the Clerk of Court.
7. A pro se litigant bears responsibility for actively pursuing his or her case and must
obtauf any essential discovery, file all necessary pleadings and motions, comply with all
scheduling orders, and prepare the case for trial.
8. It is Plaintiff’s responsibility to see to it dial Defendants are served with the summons
and complaint. Under Federal Rule of Civil Procedure 4(m), service of the summons and
complaint must be perfected upon Defendants within 120 days after the filing of the complaint
DONE AND ORDERED in Fort Lauderdale, Florida this 22nd day of May, 2019.

RODOLFO RUIZ
UNITED STATES DISTRICT JUDGE

' ®

Page 2 of2

6

